APPENDIX A

United States v. Glenn, 846 Fed.Appx. 110 (2021)

846 Fed.Appx. 110
This case was not selected for publication in West’s
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of Appeals 3rd
Cir. App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
UNITED STATES of America
v.
John D. GLENN, Jr., Appellant
No. 18-2929
|
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
December 10, 2020
|
(Filed: March 9, 2021)

Synopsis
Background: Defendant was convicted in the United
States District Court for the Eastern District of
Pennsylvania, Joel H. Slomsky, Senior District Judge, of
two counts of bank fraud and one count of conspiracy to
commit bank fraud. Defendant appealed.

Holdings: The Court of Appeals, Fisher, Circuit Judge,
held that:
the district court’s failure to instruct the jury on an element
of bank fraud offense, whether the victims were mortgage
lending businesses, did not constitute plain error, and
evidence was sufficient to establish victim was in the
mortgage lending business, an element necessary to
support defendant’s conviction for conspiracy to commit
bank fraud.
Affirmed.
Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection.
*111 On Appeal from the United States District Court for
the Eastern District of Pennsylvania (D.C. No. 2-15-cr00099), District Judge: Honorable Joel H. Slomsky
Attorneys and Law Firms

Joel D. Goldstein, Esq., Kelly Harrell, Esq., Robert A.
Zauzmer, Esq., Office of United States Attorney,
Philadelphia, PA, for Plaintiff-Appellee
Alison Brill, Esq., Office of Federal Public Defender,
Trenton, NJ, Federal Public Defender District of New
Jersey, Office of Federal Public Defender, Camden, NJ,
Karina D. Fuentes, Esq., Office of Federal Public
Defender, Newark, NJ, for Defendant-Appellant
Before: MCKEE, PORTER and FISHER, Circuit Judges.

OPINION*
FISHER, Circuit Judge.
John Glenn was convicted of two counts of bank fraud1 and
one count of conspiracy *112 to commit bank fraud.2 He
appeals, arguing that the District Court erred in denying his
motion for a new trial. We will affirm.3
Glenn first argues that the District Court committed plain
error when it failed to instruct the jury on an essential
element of the bank fraud offense: whether the victims
were mortgage lending businesses.4 Because Glenn, who
was pro se, did not object to the jury instructions at trial,
we review for plain error. “To prevail on plain error review,
[the appellant] must establish that [1] there was an error,
[2] that it was plain (i.e., clear under current law), and [3]
that it affected [his] substantial rights.”5 “If all three
conditions are met,” [4] we “may then exercise [our]
discretion to notice a forfeited error, but only if ... the error
seriously affect[s] the fairness, integrity, or public
reputation of the judicial proceedings.”6
Here, the government concedes that the District Court’s
failure to instruct the jury on an element of the crime
constituted an error that was obvious under current law,
satisfying the first two conditions. But it contends the error
did not affect Glenn’s substantial rights or the fairness,
integrity, or public reputation of the proceedings, as
required by the third or fourth conditions. Glenn argues
otherwise, claiming that by telling the jury that the victim
entities were mortgage lending businesses, the District
Court “usurp[ed] the role of the jury,” which was to find
the elements of the offense.7 Glenn posits that this was
structural error similar to an impermissible mandatory
presumption because the government did not have to prove

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Glenn, 846 Fed.Appx. 110 (2021)

that the fraudulent scheme had “some real connection to a
federally insured bank”8 as required under 18 U.S.C. §
1344(2).9 The error, he says, violated his substantial rights.
After a review of the trial record,10 we agree with the
government. There was no *113 structural error here,11 and
the “third factor [of plain error review] is not met ...
because there is not ‘a reasonable probability’ that the
[C]ourt’s failure to instruct the jury [on an element of the
offense] ‘affected the outcome’ ” of Glenn’s trial.12
Specifically, there was “overwhelming evidence” showing
that “[n]o reasonable juror could conclude”13 that the
victims were not mortgage lending businesses, as
representatives from each of the three victim-entities
testified that their businesses engaged in mortgage lending
activities.14
Glenn argues that the government asserted only one
interstate mortgage transaction, which he contends was not
sufficient to make the institutions mortgage lending
businesses. There is no statutory requirement, however, to
show that an institution has a large volume of mortgage
business or transactions. An organization engaged in such
business “even for a brief time” qualifies as a mortgage
lender.15
“Because the first three plain-error prongs are not all met,
we need not reach the fourth.”16 But even if we were to
reach the fourth condition, “we would not exercise our
discretion to correct the error” because “where the jury is
not instructed on an element of a crime, but the evidence of
that element is overwhelming and uncontroverted, ... the
error does not ‘seriously affect[ ] the fairness, integrity or
public reputation’ of the proceedings.”17
Next, Glenn argues that even if the plain error standard is
not satisfied here, his conspiracy conviction still cannot
stand because the government failed to prove that Oroton,
in particular, was in the mortgage lending business, and the
jury’s general verdict on conspiracy may have rested solely
on Glenn’s dealings with Oroton. We treat this as a

challenge to the sufficiency of the evidence on whether
Oroton was in *114 the mortgage lending business.18
“[O]ur review for sufficiency is ... highly deferential, and
we will overturn a verdict only if no reasonable juror could
accept the evidence as sufficient to support the conclusion
of the defendant’s guilt beyond a reasonable doubt.”19 That
is not the case here. As we have already noted, a
representative of Oroton testified at trial that his firm had a
mortgage division, that it financed debt secured by real
estate, and that it did business in interstate commerce.
Glenn contends that the bank fraud statute does not
consider every financial transaction of the entity, but only
those that involve mortgages. He further argues that Oroton
did not grant him a mortgage loan, but merely considered
extending him funds as part of an arbitrage transaction.
This argument fails because we have held that the fraud
need not “occur in connection with the same transaction
that places the entity within the definition of [a] financial
institution.”20 Additionally, as explained above, a large
volume of business is not a statutory requirement for an
entity to qualify as a mortgage lending business. After
viewing the record in the light most favorable to the
government,21 we find that a rational trier of fact could have
found that Oroton was a mortgage lender.
Even if Glenn were correct regarding the sufficiency of the
evidence on Oroton’s status, he would not be entitled to
relief. Where, as here, “a jury returns a general verdict of
guilty on a multi-object conspiracy count, the conviction
will stand ... so long as there is sufficient evidence to
support any one of the objects of the conspiracy.”22
For these reasons, we will affirm.
All Citations
846 Fed.Appx. 110

Footnotes

*

This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not constitute binding precedent.

1

“Whoever knowingly executes, or attempts to execute, a scheme or artifice--(1) to defraud a financial institution; or
(2) to obtain any of the moneys ... of ... a financial institution, by means of false or fraudulent pretenses ... shall be
fined ... or imprisoned ... or both.” 18 U.S.C. § 1344.

2

18 U.S.C. § 1349 (“Any person who attempts or conspires to commit any offense under this chapter shall be subject
to the same penalties as those prescribed for the offense, the commission of which was the object of the attempt or
conspiracy.”).
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Glenn, 846 Fed.Appx. 110 (2021)

3

The District Court had jurisdiction under 18 U.S.C. § 3231. We have jurisdiction under 28 U.S.C. § 1291.

4

A “financial institution” is defined, among other things, as “a mortgage lending business ... or entity that makes in
whole or in part a federally related mortgage loan.” 18 U.S.C. § 20(10). “A ‘mortgage lending business’ is ‘an
organization which finances or refinances any debt secured by an interest in real estate, including private mortgage
companies and any subsidiaries of such organizations, and whose activities affect interstate or foreign commerce.’ ”
United States v. Fattah, 914 F.3d 112, 183 (3d Cir. 2019) (quoting 18 U.S.C. § 27).

5

6

Id. at 172 (citing

United States v. Olano, 507 U.S. 725, 733-34, 113 S.Ct. 1770, 123 L.Ed.2d 508 (1993)).

United States v. Andrews, 681 F.3d 509, 517 (3d Cir. 2012) (internal quotation marks omitted) (quoting
v. United States, 520 U.S. 461, 467, 117 S.Ct. 1544, 137 L.Ed.2d 718 (1997)).

7

United States v. Caraballo-Rodriguez, 726 F.3d 418, 432 (3d Cir. 2013) (en banc).

8

Loughrin v. United States, 573 U.S. 351, 366, 134 S.Ct. 2384, 189 L.Ed.2d 411 (2014).

9

Johnson

United States v. Korey, 472 F.3d 89, 94 (3d Cir. 2007) (finding that a statement “directly foreclos[ing] independent
jury consideration of whether the facts proved established certain elements of the offense” amounted to an improper
mandatory presumption (quoting

Carella v. California, 491 U.S. 263, 266, 109 S.Ct. 2419, 105 L.Ed.2d 218 (1989))).

10

See United States v. Johnson, 899 F.3d 191, 200 (3d Cir. 2018) (“[W]e will review the record of Johnson’s trial to
determine whether the District Court committed plain error when it failed” to give jury instructions “on an element
listed in the indictment.”).

11

United States v. Vazquez, 271 F.3d 93, 103 (3d Cir. 2001) (“Trial errors resulting from a failure to submit an element
of an offense to the jury are not structural defects, but instead, are subject to ... plain error analysis.”);
Johnson,
520 U.S. at 468-69, 117 S.Ct. 1544 (Structural errors are found “in a very limited class of cases” such as “a total
deprivation of the right to counsel,” a “lack of an impartial trial judge,” or an “unlawful exclusion of grand jurors of
[the] defendant’s race.”).

12

Johnson, 899 F.3d at 200 (quoting
(2010)).

13

Johnson, 520 U.S. at 465, 117 S.Ct. 1544 (internal quotation marks omitted); see also Johnson, 899 F.3d at 200 (“A
court’s failure to instruct on an element listed in the indictment is not plain error if we determine that it is ‘clear
beyond a reasonable doubt that a rational jury’ would have found the element in question ‘absent the error.’ ”
(quoting

United States v. Marcus, 560 U.S. 258, 262, 130 S.Ct. 2159, 176 L.Ed.2d 1012

United States v. Lewis, 802 F.3d 449, 456 (3d Cir. 2015))).

14

See App. 205 (testimony that Oroton Equities “constitute[d] an organization which finances or refinances debt secured
by interest in real estate, including private mortgage companies” and did business “in interstate commerce”); App
425-26 (testimony that Stout Street Funding, LLC, was “a private lender that lends to property investors,” “including
private mortgage companies,” and that its business “affect[ed] interstate commerce”); App. 525 (testimony that
National Capital Management, LP, was “an organization which finances or refinances any debt secured by an interest
in real estate, including private mortgage companies”).

15

Fattah, 914 F.3d at 183; see also United States v. Springer, 866 F.3d 949, 953 (8th Cir. 2017) (finding that the
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Glenn, 846 Fed.Appx. 110 (2021)

mortgage lending business “need only ... be in the interstate mortgage lending business in general”).
16

Johnson, 899 F.3d at 200 (citing

17

Id. at 200-01 (quoting

18

Glenn argues that we should review this issue de novo because it involves the interpretation of a statute, i.e., 18 U.S.C.
§ 27 (defining “mortgage lending business”). But in fact, Glenn’s argument requires no parsing of the statute; it hinges
rather on his assertion that “Oroton’s unsupported statement” that it was indeed a mortgage lender did not
“establish[ ] [that fact] beyond a reasonable doubt.” Appellant’s Br. 31.

Marcus, 560 U.S. at 265, 130 S.Ct. 2159).

Vazquez, 271 F.3d at 105).

19

Caraballo-Rodriguez, 726 F.3d at 430-31 (internal quotation marks and citation omitted).

20

Fattah, 914 F.3d at 184 (internal quotation marks and citation omitted).

21

22

See
726 F.3d at 424-25 (when reviewing a sufficiency challenge, we view the evidence in the light most favorable
to the government)
United States v. Conley, 92 F.3d 157, 163 (3d Cir. 1996) (emphasis added).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

APPENDIX B

Case: 18-2929

Document: 137

Page: 1

Date Filed: 08/04/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______
No. 18-2929
______
UNITED STATES OF AMERICA
v.
JOHN D. GLENN, JR.,
Appellant
______
(D.C. No. 2-15-cr-00099-001)
______
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS and FISHER 1, Circuit Judges
______
SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
______
The petition for rehearing filed by Appellant John D. Glenn, Jr., in the aboveentitled case having been submitted to the judges who participated in the decision of this
Court and to all the other available circuit judges of the circuit in regular active service,
and no judge who concurred in the decision having asked for rehearing, and a majority of
the judges of the circuit in regular service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is denied.

Dated: August 4, 2021
PDB/cc: John D. Glenn, Jr.
All Counsel of Record

1

BY THE COURT:
s/ D. Michael Fisher
Circuit Judge

Judge Fisher’s vote is limited to panel rehearing only.

